HHS/OIG, Audit -"Review Of Medicare Reimbursement For Outpatient Cardiac Rehabilitation Services For Calendar Year 2001,"(A-09-03-00043)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Reimbursement for Outpatient Cardiac Rehabilitation Services for Calendar Year 2001," (A-09-03-00043)
October 17, 2003
Complete
Text of Report is available in PDF format (961 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Redding Medical Center (the hospital)
for outpatient cardiac rehabilitation services.  We determined that the hospital met the Medicare cardiac rehabilitation
coverage requirements for direct physician supervision although a written policy describing the physicians roles and responsibilities
was not established.  Further, we found that the hospitals policies and procedures did not fully meet the Medicare
requirement that outpatient cardiac rehabilitation services should be provided incident to a physicians professional
services.  In addition, from our specific claims review for a sample of 30 beneficiaries who received 726 outpatient
cardiac rehabilitation services during calendar year 2001, we determined that the hospital received Medicare reimbursement
for outpatient cardiac rehabilitation services, amounting to about $1,239, for which the diagnosis used to establish the
patients eligibility for outpatient cardiac rehabilitation services may not have been supported by medical record documentation,
or which were otherwise unallowable.